No.
IN THE

Supreme Court of the United States
ROBERT PHILLIP IVERS,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

APPENDIX
BRETT D. KELLEY

KELLEY, WOLTER & SCOTT, P.A.
Centre Village Offices
Suite 2530
431 South Seventh Street
Minneapolis, MN 55415
Tel: (612) 371-9090
Fax: (612) 371-0574
bkelley@kelleywolter.com

*CJA Counsel for Petitioner
*Counsel of Record

1a
APPENDIX A
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE EIGHTH CIRCUIT
DATED JULY 23, 2020.

IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-1563
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
Appeal from United States District Court
for the District of Minnesota
Submitted: May 15, 2020
Filed: July 23, 2020.
Before SMITH, Chief Judge,
SHEPHERD, Circuit Judges.

MELLOY

and

2a
Opinion
SHEPHERD, Circuit Judge.
Following a jury trial, Robert Ivers was convicted
of one count of threatening to murder a federal judge,
in violation of 18 U.S.C. § 115(a)(1)(B), and one count
of interstate transmission of a threat to injure the
person of another, in violation of 18 U.S.C. § 875(c).
The district court 5 sentenced Ivers to 18 months
imprisonment with three years of supervised release
to follow. Ivers appeals his conviction, arguing that
the statements at issue were privileged, that there
was insufficient evidence suggesting that he made a
true threat of present or future harm, that the district
court erred in instructing the jury, and that the
district court's cumulative errors deprived him of his
right to a fair trial. Having jurisdiction under 28
U.S.C. § 1291, we affirm.
I.
“We recount the relevant testimony and other
evidence presented at trial in the light most favorable
to the jury's verdict.” United States v. Shavers, 955
F.3d 685, 688 n.2 (8th Cir. 2020).
A.
In February 2015, Ivers filed a lawsuit in
Minnesota state court against a life insurance
company, which was then removed to federal court
The Honorable Robert W. Pratt, United States District
Judge for the Southern District of Iowa, sitting by designation in
the District of Minnesota.
5

3a
and eventually assigned to Judge Wilhelmina M.
Wright of the District of Minnesota. See Ivers v.
CMFG Life Ins. Co., No. 15-cv-1577-WMW-BRT, 2015
WL 13667066 (D. Minn. filed Mar. 23, 2015). In
September 2016, Judge Wright entered an order
granting summary judgment in favor of the life
insurance company on all but one of Ivers's claims.
The following month, Ivers mailed Judge Wright a
packet of various court-related materials on which
Ivers had written notes. These notes included
statements such as “I do not know where I am fucking
sleeping tonight! Think about it!”; “I am sick and tired
of this fucking bullshit!”; “I want my fucking money
....”; “I will not negotiate!!!”; “Have I made myself
clear!!!”; “I am in dire fucking straits!”; and “I am
becoming a very dangerous person!!!”
Although the case had been scheduled for a
settlement conference before Magistrate Judge Becky
R. Thorson, the conference was cancelled. And
because neither party demanded a jury trial, the case
was instead set for a bench trial before Judge Wright.
In November 2016, Ivers sent a letter to the court,
demanding “a jury trial or [his] fucking money.” In
that letter he also stated: “I smell a rat! Somebody
needs to explain to me what the fuck is going on!?”
Ivers’s communications were forwarded to the
United States Marshals Service (USMS). Deputy
Marshal Jeffrey Hattervig started investigating Ivers
and learned that Ivers had previously threatened a
Minnesota state court judge who presided over a
separate civil action filed by Ivers. Ivers was later

4a
charged in state court with stalking and making
terroristic threats, and following a trial, he was
convicted of stalking. At the time of his statements to
Judge Wright, he was on probation for this offense.
Hattervig spoke with Ivers when he appeared at the
federal courthouse for a pretrial hearing on January
4, 2017. Although Ivers was cordial and mentioned to
Hattervig that his statements to Judge Wright were
intended to speed up the proceedings, he signaled his
frustration with the defendant life insurance company
and stated that he did not want to “carry that hurt
around inside” and that he would “be a walking bomb”
if he did not vent his frustrations. Although he told
Hattervig that he would accept the result of the trial,
Hattervig remained concerned about Ivers's lack of
remorse for his prior statements. This prompted the
USMS to provide increased security at the trial, and
Hattervig warned Ivers that sending threatening
communications could be a crime.
Following trial, judgment was entered in favor of
the life insurance company. Ivers later sent letters to
Chief Judge John R. Tunheim and Magistrate Judge
Thorson in which he requested a new trial and
asserted that Judge Wright acted with bias against
Ivers in disposing of the case. He later sent the same
letter to Judge Wright and additional copies to Chief
Judge Tunheim, Magistrate Judge Thorson, and the
Clerk of Court. On the envelopes of some of those
letters, he wrote notes stating that: “I was cheated by
one of your federal judges and I demand redress.” On
the letter to Judge Wright, Ivers wrote: “You cheated
me and I will not stop smearing your name until I get

5a
redress.” Ivers also called Chief Judge Tunheim's
chambers to voice his displeasure with Judge Wright's
decision and request that Chief Judge Tunheim take
action. When Ivers was informed that the proper
course of action would be to appeal his case to this
Court, Ivers “was not happy with that” and mentioned
that he “was crazy mad, and he didn't know what to
do with it.” Ivers again described himself as a
“walking bomb because he was so frustrated.” Chief
Judge Tunheim's staff, concerned about Ivers's
fixation on Judge Wright, contacted the USMS. A few
days later, Ivers sent another round of letters,
addressing one to “Corrupt Judge Wright” and
demanding that she “pay attention.” Copies of the
letters to Chief Judge Tunheim, Magistrate Judge
Thorson, and the Clerk of Court included a statement
on the envelopes that said: “Judge Wright is a
Corrupt! [sic] Judge.”
Ivers's post-trial conduct prompted Deputy
Marshals Hattervig and Farris Wooton to visit with
Ivers at his residence to discuss his letters and calls.
In particular, they were concerned about “the
aggressive nature of [Ivers's] letters, the fixation on
Judge Wright, the repeated mailings to multiple
people, calling her corrupt, and the increased
agitation against Judge Wright, coupled with the
phrase ‘walking bomb.’” Hattervig and Wooton hoped
that Ivers would “show some contrition and say, okay,
I realize that I crossed the line and I won't do it
anymore.” However, Ivers did not do that. Instead, he
refused to retract his statements, remained visibly
angry, and confirmed that he remained a “ticking time

6a
bomb.” Ivers also told Hattervig and Wooton to inform
the federal judges in the Twin Cities that he was “out
of his fucking mind crazy” and mentioned that he was
“glad they took [his letters and calls] seriously.”
Regarding Judge Wright, Ivers told Hattervig and
Wooton “that fucking judge—you know, if she's scared
and she's fearful, it's not my problem. She made her
bed.” Ivers remained upset with Judge Wright for
“snatch[ing]” the life insurance policy at issue in the
lawsuit “right out from under ... [him].” Ivers
concluded the conversation by again reiterating that
“[he] possibly could be a walking bomb.” When
Hattervig left his business card in an attempt to
prompt Ivers to call him instead of court personnel if
Ivers was angry, Ivers refused the card and again
stated that: “[I]f they're living in fear, too fucking bad.
It's what they deserve.”
B.
Ivers later filed a second lawsuit against the life
insurance company. See Ivers v. CMFG Life Ins. Co.,
No. 17-cv-5068-PJS-DTS (D. Minn. filed Nov. 9, 2017).
This case was initially assigned to District Judge
Patrick J. Schiltz and Magistrate Judge David T.
Schultz. Magistrate Judge Schultz initially found that
Ivers's complaint failed to state a claim for relief and
referred Ivers to the District of Minnesota's Pro Se
Project, which matches pro se litigants with private
attorneys, to allow Ivers to obtain help in filing an
amended complaint. Ivers was later matched with
Attorney Anne Rondoni Tavernier, who was assisted

7a
by Attorney Lora Friedemann, a more experienced
attorney at Rondoni Tavernier's firm.
Attorneys Rondoni Tavernier and Friedemann
determined that Ivers did not have a claim against the
life insurance company. They scheduled a call with
Ivers to apprise him of their legal conclusions and to
inform him that they would not be taking his case. In
the first part of the approximately 30-minute call,
Attorneys Rondoni Tavernier and Friedemann
discussed the pending lawsuit and explained that
Ivers would likely be unsuccessful due to the rulings
made by Judge Wright in the earlier lawsuit. As they
started to discuss the prior lawsuit, Ivers became
angry, and he started to yell and use profane
language. He started ranting about Judge Wright,
and Attorney Friedemann transcribed parts of what
he said, including the following statements: “This
fucking judge stole my life from me.”; “I had
overwhelming evidence.”; “Judge ‘stacked the deck’ to
make sure I lost this case.”; “Didn't read the fine print
and missed the 30 days to seek a new trial—and ‘she
is lucky.’ I was ‘going to throw some chairs.’ ”; and
“You don't know the 50 different ways I planned to kill
her.” The attorneys did not speak while Ivers was
ranting, and after Ivers stopped speaking, the
attorneys concluded the call. Both attorneys were
frightened by what Ivers had said, and Attorney
Friedemann would later describe it as “a death threat
against Judge Wright.”
Following the call, and after consulting with their
firm's ethics advisors, Attorneys Rondoni Tavernier

8a
and Friedemann contacted the coordinator of the Pro
Se Project to inform her that Ivers “made a threat
against Judge Wright.” The coordinator, in turn,
informed Judge Wright. The USMS was also alerted,
and deputy marshals were sent to speak with Ivers.
Ivers, however, refused to speak with the deputies and
repeatedly came to the front door to shout at them.
Although Ivers's sister attempted to intercede and
explain to Ivers that the deputies merely “need to
know that you're not serious about something like
that, killing a judge, because you said it on the phone,”
Ivers told the deputies to “get the fuck out of here,”
and he continued to rant about Judge Wright. In
addition to calling Judge Wright a racial epithet, he
mentioned again that she was “that fucking judge who
stole” his life, money, and future. He also said: “[Y]ou
want to know what, if she doesn't sleep very good, fuck
her,” and he instructed the deputies to report that
Ivers remained “crazy fucking angry.”
C.
Ivers was later indicted for threatening to murder
a federal judge, in violation of 18 U.S.C. § 115(a)(1)(B),
and for interstate transmission of a threat to injure
the person of another, in violation of 18 U.S.C. §
875(c). Ivers moved to exclude all of his statements
made during the call with Attorneys Rondoni
Tavernier and Friedemann on the grounds that they
were subject to the attorney-client privilege.
Following an evidentiary hearing, the district court
denied Ivers's motion, finding that it could separate
the threat statements, which it held were unprotected

9a
by the privilege because they were not made for the
purpose of obtaining legal advice, from portions of the
call that were made for the purpose of obtaining
advice related to Ivers's ongoing lawsuit. Ivers
proceeded to trial, and the jury found him guilty on
both counts. This appeal follows.
II.
Ivers first argues that the “threat statements” he
made on the call with Attorneys Rondoni Tavernier
and Friedemann were protected by the attorney-client
privilege. This included his declaration that “You
don't know the 50 different ways I planned to kill her.”
The scope of an evidentiary privilege is a mixed
question of fact and law which this Court reviews de
novo. See United States v. Ghane, 673 F.3d 771, 77980 (8th Cir. 2012). We review the district court's
factual findings underlying the privilege for an abuse
of discretion and its legal conclusions de
novo. See United States v. Smith, 383 F.3d 700, 706
(8th Cir. 2004). As the party seeking to assert the
privilege, Ivers has the burden of showing that the
privilege applies, Bouschor v. United States, 316 F.2d
451, 456 (8th Cir. 1963), and must show that the
statements at issue were “made for the purpose of
facilitating the rendering of legal services to the
client.” United States v. Spencer, 700 F.3d 317, 320
(8th Cir. 2012).
“The Federal Rules of Evidence provide that
evidentiary privileges ‘shall be governed by the
principles of the common law ... in the light of reason
and experience.’ ” United States v. Jicarilla Apache

10a
Nation, 564 U.S. 162, 169, 131 S.Ct. 2313, 180 L.Ed.2d
187 (2011) (alteration in original) (quoting Fed. R.
Evid. 501). “Generally, it is well established under
common law that confidential communications
between an attorney and a client are privileged and
not subject to disclosure absent consent of the
client.” United States v. Horvath, 731 F.2d 557, 562
(8th Cir. 1984). “[T]he attorney-client privilege is,
perhaps, the most sacred of all legally recognized
privileges, and its preservation is essential to the just
and orderly operation of our legal system.” United
States v. Bauer, 132 F.3d 504, 510 (9th Cir. 1997). It
“is the oldest of the privileges for confidential
communications known to the common law.” Upjohn
Co. v. United States, 449 U.S. 383, 389, 101 S.Ct. 677,
66 L.Ed.2d 584 (1981). As explained in Upjohn, the
principle behind the privilege
is to encourage full and frank
communication between attorneys and
their clients and thereby promote
broader public interests in the
observance of law and administration of
justice. The privilege recognizes that
sound legal advice or advocacy serves
public ends and that such advice or
advocacy depends upon the lawyer's
being fully informed by the client.
Id.
However, “[p]rivileges, as exceptions to the general
rule, are not lightly created nor expansively
construed, for they are in derogation of the search for

11a
truth.” In re Grand Jury Subpoena Duces Tecum, 112
F.3d 910, 918 (8th Cir. 1997) (internal quotation
marks omitted). Accordingly, the attorney-client
privilege is narrowly construed and “protects only
those disclosures—necessary to obtain informed legal
advice—which might not have been made absent the
privilege.” Fisher v. United States, 425 U.S. 391, 403,
96 S.Ct. 1569, 48 L.Ed.2d 39 (1976); see
also Diversified Indus., Inc. v. Meredith, 572 F.2d 596,
602 (8th Cir. 1977) (“While the privilege, where it
exists, is absolute, the adverse effect of its application
on the disclosure of truth may be such that the
privilege is strictly construed.”).
Threats of violence are not statements that fall
under the scope of the attorney-client privilege. The
Supreme Court has held that “[a] defendant who
informed his counsel that he was arranging to bribe
or threaten witnesses or members of the jury would
have no ‘right’ to insist on counsel's ... silence.” Nix v.
Whiteside, 475 U.S. 157, 174, 106 S.Ct. 988, 89
L.Ed.2d 123 (1986). Indeed, this type of
communication is not made for the “purpose of
facilitating the rendering of legal services[,]” Spencer,
700 F.3d at 320, but rather, is usually done to harass,
intimidate, coerce, warn, or frighten the intended
victim of the threat or a person who hears the threat.
Therefore, we agree with the Ninth Circuit's
observation that a “[defendant's] threats to commit
violent acts against [alleged victims are] clearly not
communications in order to obtain legal advice.”

12a
United States v. Alexander, 287 F.3d 811, 816 (9th
Cir. 2002). 6
Here, there is no dispute that Ivers enjoyed an
attorney-client relationship with Attorneys Rondoni
Tavernier and Friedemann or that parts of their
telephone call were protected by the attorney-client
privilege. Instead, the only issue is whether Ivers's
threat statements, made towards the end of the call,
are protected by the privilege.
The threat statements at issue were not protected
by the attorney-client privilege, and we hold that they
were properly received into evidence. Again, while the
communications made in the first part of the call were
indisputably for the purpose of obtaining legal
services, as they concerned the merits of Ivers's
lawsuit and the attorneys’ opinions as to Ivers's
prospects for success, Ivers made the threat
statements towards the end of the call and only after
the attorneys had finished discussing his case with
him. Indeed, at the end of the call, Ivers became angry
and began ranting about Judge Wright for
approximately ten minutes. The attorneys did not
engage with him or speak at any time during his
tirade, and when he was finished, they simply ended
the call. One of the attorneys later testified that
While the scope of the attorney-client privilege and a
lawyer’s obligation of confidentiality are not coterminous, it is
worth noting that, under the Minnesota Rules of Professional
Conduct, there is an exception to the lawyer’s duty of
confidentiality to her client if “the lawyer reasonably believes the
disclosure is necessary to prevent reasonably certain death or
substantial bodily harm.” Minn. R. Prof’l Conduct 1.6(b)(6).
6

13a
Ivers's statements “weren't specifically relating to the
advice” that he had received during the course of the
call. Moreover, for the reasons discussed below, Ivers's
statements, particularly his comment that “You don't
know the 50 different ways I planned to kill her,”
undoubtedly threatened the life of a federal judge and
were in no way necessary to further his civil lawsuit
or made in order to obtain guidance in filing an
amended complaint. For these reasons, it is clear that
the statements at issue were not for the purpose of
obtaining legal advice about his pending lawsuit
against an insurance company and are not protected
by the attorney-client privilege. See United States v.
Sabri, 973 F. Supp. 134, 140-41 (W.D.N.Y. 1996)
(finding that threat statements made by a defendant
to his attorney concerning immigration officials were
not protected by the attorney-client privilege).
Although Ivers spends much of his brief discussing
the “predominant-motivation” and “sole-motivation”
tests for the attorney-client privilege, arguing that
these tests demonstrate that the statements were
privileged, this argument is without merit. 7 Ivers's
argument concerning the predominant-motivation
and sole-motivation tests is based on the incorrect
In order for the attorney-client privilege to protect a
communication between a client and his attorney, the
predominant-motivation test requires that the client’s
primary motivation in making the communication to the
attorney is to obtain legal advice. See Edward J. Imwinkelried,
The New Wigmore: Evidentiary Privileges § 6.11.2 (3d ed. 2020).
The sole-motivation test requires that the client’s sole motivation
in making the communication to the attorney is to obtain legal
advice. See id.
7

14a
assumption that the entire conference call with
Attorneys Rondoni Tavernier and Friedemann was
privileged. But courts routinely decide which specific
communications between a client and his attorneys
are privileged, and they often segregate privileged
and non-privileged communications in particular
conversations or documents. See, e.g., Alexander, 287
F.3d at 815; In re Grand Jury Proceedings, 841 F.2d
230, 233 (8th Cir. 1988). That some parts of the call
were privileged does not mean that the entire call was
privileged. The first part of the call in which Ivers was
actually receiving legal advice is easily severable from
the second part of the call, in which Ivers ranted about
and threatened Judge Wright.
For these reasons, we see no error in the district
court's determination that the threat statements in
Ivers's call with Attorneys Rondoni Tavernier and
Friedemann were not privileged. 8
III.
Next, Ivers asserts that there was insufficient
evidence presented at trial to prove that he made a
“true threat” of present or future harm towards Judge
Wright. “[W]e will review the sufficiency of the
evidence to sustain a conviction de novo, viewing the
evidence in the light most favorable to the jury's
verdict and reversing the verdict only if no reasonable
jury could have found the defendant guilty beyond a
Because the government did not argue to the district court
that the crime-fraud exception to the attorney-client privilege
applies, and concedes that it does not apply on appeal, we need
not address that issue.
8

15a
reasonable doubt.” United States v. Ramos, 852 F.3d
747, 753 (8th Cir. 2017) (internal quotation marks
omitted).
“As a general matter, the First Amendment
prohibits governmental actors from directing what
persons may see, read, speak, or hear. Free speech
protections do not extend, however, to certain
categories or modes of expression, such as obscenity,
defamation, and fighting words.” Doe v. Pulaski Cnty.
Special Sch. Dist., 306 F.3d 616, 621-22 (8th Cir. 2002)
(en banc) (internal citation omitted). “True threats”
are unprotected speech. Id. at 622. But “[w]hat is a
[true] threat must be distinguished from what is
constitutionally protected speech.” Watts v. United
States, 394 U.S. 705, 707, 89 S.Ct. 1399, 22 L.Ed.2d
664 (1969) (per curiam).
To determine what constitutes a “true threat,”
“[the fact-finder] must view the relevant facts to
determine whether the recipient of the alleged threat
could reasonably conclude that it expresses a
determination or intent to injure presently or in the
future.” Pulaski Cnty. Special Sch. Dist., 306 F.3d at
622 (internal quotation marks omitted); see
also United States v. Mabie, 663 F.3d 322, 333 (8th
Cir. 2011) (noting that the “government need not
prove that [defendant] had a subjective intent to
intimidate or threaten,” rather, it must show “that a
reasonable person would have found that
[defendant's] communications conveyed an intent to
cause harm or injury”). This is for the fact-finder to
determine “in the context of the totality of the

16a
circumstances in which the communication was
made.” United States v. Bellrichard, 994 F.2d 1318,
1323 (8th Cir. 1993). Relevant factors include:
1) [T]he reaction of those who heard the
alleged threat; 2) whether the threat was
conditional; 3) whether the person who
made the alleged threat communicated it
directly to the object of the threat; 4)
whether the speaker had a history of
making threats against the person
purportedly threatened; and 5) whether
the recipient had a reason to believe that
the speaker had a propensity to engage
in violence.
Pulaski Cnty. Special Sch. Dist., 306 F.3d at 623.
Ivers argues that the evidence was insufficient to
demonstrate a true threat against Judge Wright
because his statements did not evince a present or
future intent to harm Judge Wright. In particular,
Ivers focuses on the fact that his statements to
Attorneys Rondoni Tavernier and Friedemann, and in
particular, his statement that “You don't know the 50
different ways I planned to kill her,” used the past
tense, suggesting he lacked the intent to cause any
present or future harm. Ivers also asserts that his
language was intentionally exaggerated and
hyperbolic and that he reasonably believed everything
he said to his attorneys would remain confidential.
Although Ivers's brief focuses on the statements he
made during his call with his attorneys, it is

17a
important to note that his fixation with, and anger
towards, Judge Wright preceded the call by roughly
two years. Indeed, during his first lawsuit, Ivers
engaged in a campaign of sending threatening or
intimidating communications to Judge Wright and
others. Specifically, Ivers sent her a warning in which
he stated that he was “becoming a very dangerous
person” and later demanded “a jury trial or [his]
fucking money.” He also sent letters to Judge Wright
and other judges in the District of Minnesota in which
he demanded a new trial, calling Judge Wright
corrupt, and stating that he would “smear her name.”
He later described himself to Chief Judge Tunheim's
staff and Deputy Marshal Hattervig as a “walking
bomb.” When confronted by Hattervig and Wooton,
Ivers refused to retract these statements, reiterated
his anger, and expressed his pleasure that his
statements were being taken seriously and
frightening others. He confirmed that he remained
“out of his fucking mind crazy.” Hattervig also found
out that Ivers was then serving a term of probation for
threatening a Minnesota state court judge. It was in
this context that Ivers, during his call with Attorneys
Rondoni Tavernier and Friedemann, explicitly
threatened
violence
against
Judge
Wright.
See Bellrichard, 994 F.2d at 1323 (noting that the
threat must be “viewed in textual context and also in
the context of the totality of the circumstances in
which the communication was made”).
Contrary to Ivers's arguments, a jury could have
reasonably concluded that, under the totality of the
circumstances, Ivers's comments constituted a “true

18a
threat” of present or future violence. Ivers explicitly
threatened Judge Wright's life during his call with
Attorneys Rondoni Tavernier and Friedemann—it
was reasonable to interpret his statement that “You
don't know the 50 different ways I planned to kill her”
as a death threat. During the call, Ivers began ranting
about Judge Wright, and his tone and manner of
speaking were threatening and of “barely controlled
rage.” He made other troubling statements, including
the following: “This fucking judge stole my life from
me,” and “I was going to throw some chairs.”
Similarly, when deputy marshals later confronted
Ivers about the call, he initially refused to speak with
them; shouted at them; referred to Judge Wright by a
racial epithet; stated that Judge Wright was “that
fucking judge who stole” his life, money, and future;
and confirmed that he remained “crazy fucking
angry.” Even after Ivers's sister explained to him that
the deputy marshals were only there to confirm that
he did not actually mean to threaten the life of a
federal judge, Ivers refused to retract his statements
or assuage the fears of law enforcement.
It is important to note the effect of Ivers's
statements and letters on those who heard or read
them. See United States v. J.H.H., 22 F.3d 821, 827
(8th Cir. 1994) (“Evidence showing the reaction of the
victim of a threat is admissible as proof that a threat
was made.”). At trial, several government witnesses
testified that they found Ivers's statements to be
threatening and frightening. Attorney Friedemann
testified that she interpreted Ivers's statements as “a
death threat against Judge Wright” and that nothing

19a
from the call indicated to her that Ivers had
abandoned his plans to kill Judge Wright. Attorney
Rondoni Tavernier testified that, based on the
intensity of Ivers's anger, she was even worried for her
own safety. Similarly, Deputy Marshal Wooton stated
that he was concerned about the statements and that
Ivers's conduct suggested that he could act on his
threat.
Accordingly, because of the intensity of Ivers's
expressed anger towards Judge Wright, his tone and
demeanor, his prior conduct, his history of letters and
communications to Judge Wright and others, and
Judge Wright's prior rulings in Ivers's first lawsuit,
the jury could reasonably infer a true threat of present
or future harm from, among other statements, Ivers's
comment that he “planned to kill [Judge Wright].”
Finally, we find unpersuasive Ivers's remaining
arguments that there was insufficient evidence to
sustain the verdict. Although we acknowledge that
Ivers made some of his statements in the call using
the past tense, this fact is not, by itself, dispositive in
light of the “textual context and also in the context of
the totality of the circumstances.” Bellrichard, 994
F.2d at 1323. Similarly, that Ivers believed his
communications to Attorneys Rondoni Tavernier and
Friedemann would remain confidential is not
dispositive—again, whether the statement at issue is
made directly to the intended victim is but one factor
to consider in determining whether it is a
threat. See Pulaski Cnty. Special Sch. Dist., 306 F.3d
at 623. In view of the totality of the circumstances, the

20a
jury could reasonably conclude that Ivers made a true
threat against Judge Wright, even if he did not think
anyone other than Attorneys Rondoni Tavernier and
Friedemann would hear it. And even if Ivers never
had any intention of acting on the threat, that fact is
irrelevant. See Bellrichard, 994 F.2d at 1324.
Further, Ivers's repeated comments that he was “out
of his fucking mind crazy” and concerning his
desperation and financial circumstances could lead
one to believe he would act upon his threat. Deputy
marshals repeatedly visited with Ivers and told him
to stop, but this did not stop Ivers nor did he retract
his comments or show any remorse for them. Finally,
we are unconvinced by Ivers's argument that he was
exaggerating or employing rhetorical hyperbole, such
as through boasting of “50 different ways” to murder
Judge Wright. “That correspondence containing
threatening language is phrased in outrageous terms
does not make the correspondence any less
threatening.” Id. at 1322.
For the foregoing reasons, we conclude that
sufficient evidence supports the jury's verdict.
IV.
Ivers also claims that the district court erred in
instructing the jury on Count 1, threatening to
murder a federal judge, in violation of 18 U.S.C. §
115(a)(1)(B), and Count 2, interstate transmission of
a threat to injure the person of another, in violation of
18 U.S.C. § 875(c). Specifically, he contends that, as to
Count 1 the district court failed to instruct the jury
that he must have subjectively intended his statement

21a
to be a threat. He also asserts that the district court
failed to correctly define “threat” as to both Counts 1
and 2 because the jury instructions failed to include
the requirement that the threat convey present or
future harm. “We review a district court's formulation
of jury instructions for abuse of discretion and
consider whether the instructions correctly state the
applicable law.” United States v. Walker, 428 F.3d
1165, 1171 (8th Cir. 2005) (internal quotation marks
omitted). “When viewing the instructions as a whole
in light of the evidence and applicable law, we
determine whether the instructions fairly and
adequately submitted the issues in the case to the
jury.” United States v. Brede, 477 F.3d 642, 643 (8th
Cir. 2007) (internal quotation marks omitted).
First, we find unpersuasive Ivers's argument that
the district court erred by failing to instruct the jury
that Ivers must have subjectively intended his
statement to be a threat in order to convict him of
Count 1. Ivers relies heavily on Elonis v. United
States, 575 U.S. 723, 135 S. Ct. 2001, 192 L.Ed.2d 1
(2015), in which the Supreme Court held that 18
U.S.C. § 875(c) requires the jury to find that the
defendant subjectively intended to threaten his
victim. However, we have previously noted
that Elonis “did not announce a universal definition of
‘threat’ that always requires the same mens
rea,” United States v. Harper, 869 F.3d 624, 626 (8th
Cir. 2017), and our decision in United States v. Wynn,
827 F.3d 778 (8th Cir. 2016) forecloses Ivers's
argument. In Wynn, we rejected the same argument
that Ivers now makes, observing that the only mens

22a
rea requirement in 18 U.S.C. § 115(a)(1)(B) is “the
intent to retaliate against the [federal judge] on
account of the performance of official duties.” Id. at
785 (internal quotation marks omitted). Accordingly,
the government was not required to prove that Ivers
subjectively intended his statement to be a threat—
rather, the government needed to prove that Ivers
made a true threat with the intent to retaliate against
Judge Wright on account of the performance of her
official duties. See id.; see also Elonis, 135 S. Ct. at
2010 (“[W]e read into the statute only that mens
rea which is necessary to separate wrongful conduct
from otherwise innocent conduct.” (internal quotation
marks omitted)).
Second, we reject Ivers's argument that the district
court erred by incorrectly defining “threat” for Counts
1 and 2 because it failed to specifically include a
temporal requirement that the threat convey present
or future harm. See Pulaski Cnty. Special Sch. Dist.,
306 F.3d at 622 (noting that a true threat is one that
conveys an intent to cause present or future harm).
Instruction No. 10 informed the jury that “[a]n
expression to injure in the past may be circumstantial
evidence of intent to injure in the present or future.”
Moreover, Ivers repeatedly argued to the jury that he
could not be convicted for a past threat, that “[a]
threat is now or in the future[,]” and that he lacked
any future intent to harm Judge Wright. He also cross
examined several witnesses about the distinction
between the words “plan” and “planned,” further
demonstrating that the jury heard both argument and
evidence concerning the distinction between past

23a
threats and threats of present or future
harm. See Penry v. Johnson, 532 U.S. 782, 800, 121
S.Ct. 1910, 150 L.Ed.2d 9 (2001) (observing that jury
instructions should be reviewed in the context of the
comments made by the government and defense
counsel and “with a commonsense understanding ... in
the light of all that has taken place at the trial”
(internal quotation marks omitted)). In light of
Instruction No. 10 and the defense's arguments and
evidence at trial, there was a sufficient basis from
which the jury could infer that a threat must evince
an intent to harm someone in the present or
future. See United States v. Pereyra-Gabino, 563 F.3d
322, 329 (8th Cir. 2009) (noting that “jury instructions
need not be technically perfect or even a model of
clarity” (internal quotation marks omitted)).
Accordingly, the district court did not abuse its
discretion in failing to instruct the jury on the
temporal requirement of a true threat with the
specificity suggested by Ivers.
V.
Finally, Ivers contends that the cumulative effect
of the district court's errors deprived him of a right to
a fair trial. “We may reverse where the case as a whole
presents an image of unfairness that has resulted in
the deprivation of a defendant's constitutional rights,
even though none of the claimed errors is itself
sufficient to require reversal.” United States v.
Montgomery, 635 F.3d 1074, 1099 (8th Cir. 2011)
(quoting United States v. Samples, 456 F.3d 875, 887
(8th Cir. 2006)). Because we find that Ivers has not

24a
shown that the district court erred with respect to his
first three issues on appeal, his cumulative error
argument must fall. See United States v. Anderson,
783 F.3d 727, 751 (8th Cir. 2015).
VI.
For these reasons, we affirm the judgment of the
district court.

25a
APPENDIX B
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MINNESOTA
DENYING MOTION TO EXCLUDE ATTORNEYCLIENT PRIVILEGED INFORMATION
SIGNED 06/26/2018

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
No. 0:18-cr-00090 (RWP/CFB)
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
ORDER
ROBERT W. PRATT, Judge
Before the Court are Defendant Robert Phillip
Ivers's Motion to Exclude Attorney-Client Privileged
Information, ECF No. 24, Motion for Designation of
404(b) Evidence, ECF No. 26, and Motion to Exclude

26a
404(b) Evidence, ECF No. 28. The Government has
timely filed responses to Defendant's motions. ECF
Nos. 36, 37. The matter is fully submitted.
I. BACKGROUND
The charges alleged here stem from a prior civil
action brought by Defendant in 2015 against CMFG
Life Insurance Company. See Ivers v. CMFG Life Ins.
Co., No. 0:15-cv-01577 (D. Minn. filed Mar. 23, 2015).
On June 29, 2017, following a bench trial, a judge in
the District of Minnesota entered an order against
Defendant and dismissed his claim for breach of
contract. Id., ECF No. 104. On November 9, 2017,
Defendant filed a new civil action against CMFG Life
Insurance Company. 1 See Ivers v. CMFG Life Ins. Co.,
No. 0:17-cv-05068 (D. Minn. filed Nov. 9, 2017).
Magistrate Judge Schultz referred Defendant to the
Minnesota Chapter of the Federal Bar Association's
Pro Se Project. No. 0:17-cv-05068, ECF No. 6.
On February 27, 2018, Attorney A, a volunteer
attorney with the Pro Se Project who is licensed to
practice law in the State of Minnesota, and Attorney
B, another volunteer attorney, consulted with
Defendant regarding the second civil action against
CMFG. During the half-hour phone call, Defendant
allegedly expressed his dissatisfaction with the
district court judge who dismissed his original action
against CMFG and made threats to kill the judge.
This Court dismissed Defendant's second civil action
against CMFG Life Insurance Company. Ivers v. CMFG Life Ins.
Co., No. 0:17-cv-05068, ECF No. 17 (D. Minn. May 15, 2018).
1

27a
Defendant allegedly made the following statements to
Attorneys A and B: “That judge stacked the deck
against me to make sure I lost the case”; “[The judge]
is lucky the hearing was canceled because I was going
to throw some chairs”; “This fucking judge stole my
life”; and “You don't know the fifty different ways I
plan to kill [the judge].” ECF No. 51, Attachment A.
As a result of the threats Defendant made in his
phone call with Attorneys A and B on February 27,
the Government obtained an Indictment from a grand
jury sitting in the District of Minnesota on April 18,
2018, charging Defendant with one count of
Threatening to Murder a Federal Judge, in violation
of 18 U.S.C. § 115(a)(1)(B), and one count of Interstate
Transmission of a Threat to Injure the Person of
Another, in violation of 18 U.S.C. § 875(c). ECF No. 1.
II. LAW AND ANALYSIS
A. Attorney-Client Privilege
“In the absence of a relevant federal rule, statute,
or constitutional provision, federal common law
governs questions of privilege in federal criminal
proceedings.” United States v. Yielding, 657 F.3d 688,
706 (8th Cir. 2011) (citing Fed. R. Evid. 501; United
States v. Espino, 317 F.3d 788, 795 (8th Cir. 2003)).
“The attorney-client privilege is the oldest of the
privileges for confidential communications known to
the common law.” Id. at 706–07 (quoting Upjohn Co.
v. United States, 449 U.S. 383, 389 (1981)). “This
privilege protects confidential communications
between a client and [his] attorney made for the

28a
purpose of facilitating the rendition of legal services
to the client.” Id. at 707. “The privilege belongs to and
exists solely for the benefit of the client.” Id. The party
asserting the privilege bears the burden of
establishing that the privilege applies to the
communications at issue. Hollins v. Powell, 773 F.2d
191, 196 (8th Cir. 1985).
“Generally, it is well established under common
law that confidential communications between an
attorney and a client are privileged and not subject to
disclosure absent consent of the client.” United States
v. Horvath, 731 F.2d 557, 562 (8th Cir. 1984). “A
communication is not privileged simply because it is
made by or to a person who happens to be a
lawyer.” Diversified Indus., Inc. v. Meredith, 572 F.2d
596, 602 (8th Cir. 1977). “While the privilege, where it
exists, is absolute, the adverse effect of its application
on the disclosure of truth may be such that the
privilege is strictly construed.” Id.; see also In re
Grand Jury Subpoena Duces Tecum, 112 F.3d 910,
918 (8th Cir. 1997) (“Privileges, as exceptions to the
general rule, ‘are not lightly created nor expansively
construed, for they are in derogation of the search for
truth.’ ” (quoting United States v. Nixon, 418 U.S. 683,
710 (1974))).
Defendant asserts the threatening statements are
privileged because (1) there was an attorney-client
relationship between Defendant and Attorney A; (2)
the February 27, 2018 phone call was confidential;
and (3) the primary purpose of the phone call was to
discuss Defendant's pending civil action. ECF No. 24,

29a
at 3; ECF No. 57 at 2–3. Defendant acknowledges that
some of the statements he made during the phone call
were not made for the purpose of seeking legal advice
but nevertheless argues the entire phone call is
privileged and he has not consented to a waiver of that
privilege. ECF No. 24, at 3. Defendant contends
examining individual statements made in a single
communication “is contrary to the purpose of
privilege.” ECF No. 47 at 5 (citing Upjohn Co., 449
U.S. at 389 (“[The] purpose [of the attorney-client
privilege] is to encourage full and frank
communication between attorneys and their
clients.”)).
The Government does not appear to dispute that
an attorney-client relationship existed between
Defendant and Attorney A or that portions of the
February 27 confidential phone conversation in which
Defendant was seeking or receiving legal advice are
privileged. See ECF Nos. 36 at 5–10, 51 at 5. Instead,
the Government argues that, rather than assuming
the entire phone call is privileged, the Court should
parse out the individual statements made during the
call and determine whether each statement is
privileged. Doing so, the Government contends,
demonstrates that the threatening statements were
clearly not made for the purpose of obtaining legal
advice and thus are not privileged.
In support of his argument that this Court should
apply the primary-purpose test to the phone call,
Defendant relies on two civil cases decided in this

30a
District. 2 In the first case, the court briefly addressed
the defendant's claim that certain portions of
documents were protected by the attorney-client
privilege. Cardenas v. Prudential Insurance Company
of America, Nos. Civ. 99-1421, Civ. 99-1422, Civ. 991736, 2004 WL 234404, at *2 (D. Minn. Jan. 30, 2004).
The court generally concluded the defendant had
failed to establish the documents had been “prepared
to seek or impart legal advice,” and discussed one
document in particular, stating that although “one
paragraph of the document reflects opinion workproduct, the document in its entirety ... was made for
business purposes, rather than legal advice.” Id. The
court then cited an unpublished case from the Eastern
District of Pennsylvania that held, “[b]ecause inhouse counsel may play a dual role of legal advisor
and business advisor, the privilege will apply only if
the communication's primary purpose is to gain or
provide legal advice.” Kramer v. Raymond Corp., Civ.

At oral argument, Defendant suggested a third case
supported his position: United States v. Zolin, 491 U.S. 554
(1989). Zolin, however, describes how in camera review can be
used to determine whether the crime-fraud exception applies to
allegedly privileged communications. The Government is not
asserting the crime-fraud exception; therefore, Zolin does not
apply here.
2

Additionally, the Court is not persuaded by Defendant's
argument that unless the entire phone call is treated as
privileged, there would be no reason for the crime-fraud
exception. The Court envisions many circumstances in which the
crime-fraud exception would still apply to an otherwise
privileged communication.

31a
No. 90-5026, 1992 WL 122856 (E.D. Pa. May 29,
1992).
The second is another unpublished civil case before
the court on a motion to compel discovery that
involved millions of documents that would need to be
examined for relevancy and privilege. Krueger v.
Ameriprise Fin., Inc., Civ. No. 11-2781, 2013 WL
12139425 (D. Minn. Aug. 15, 2013). In a footnote, the
court discussed the attorney-client privilege and
noted that, for the “privilege to apply, the legal advice
must predominate over the business advice, and not
be merely incidental.” Id. at *7 n.12 (citing district
court cases from Kansas, California, and Washington,
D.C., in which the courts held that when business and
legal advice are inextricably intertwined, the legal
advice must predominate over the business advice in
order to be protected by the privilege).
The Eighth Circuit has not considered whether
courts should apply the primary-purpose test or
examine each statement contained within a
communication between an attorney and his or her
client. The Court acknowledges that a large number
of cases involving the attorney-client privilege are
civil in nature and agrees with Defendant that the
privilege applies equally to civil and criminal
matters. See ECF No. 57 at 2. Still, the two civil cases
cited by Defendant are merely persuasive and are not
binding on this Court. The Court understands how, in
a case like Krueger, it would be difficult to comb
through millions of documents to determine whether
each sentence or paragraph was protected by the

32a
privilege. But here, the Court has a single, half-hour
phone call to review. 33 The Court is more persuaded
by the numerous other cases—mostly civil cases, in
fact—that support the Government's argument that
statements not made in pursuit of legal advice can be
separated from those statements that are, and the
statements not made for the purpose of seeking legal
advice will not be protected by the attorney-client
privilege. See Rohlik v. I-Flow Corp., 2012 WL
1596732, *4 (E.D.N.C. 2012) (“[I]f only certain
portions of withheld documents relate to legal advice,
only those portions should be withheld or redacted
and the remaining portions produced.”); F.C. Cycles
Int'l, Inc. v. Fila Sport, S.p.A., 184 F.R.D. 64, 71–72
(D. Md. 1998) (examining documents paragraph by
paragraph and ordering the disclosure of those
portions that related more to business strategy than
legal advice); United States v. Chevron Corp., No. C
94-1885, 1996 WL 444597, at *2 (N.D. Cal. 1996)
(observing “the long recognized rule that the attorneyclient privilege applies to discrete communications
contained within a document,” and “[t]hus despite the
overall nature of the document, the client may assert
the attorney-client privilege over isolated sentences or
paragraphs within a document”); Cuno, Inc. v. Pall
Corp., 121 F.R.D. 198, 204 (E.D.N.Y. 1988) (holding a
portion of a document was privileged where it set forth
The Court also agrees with Defendant that, for evidentiary
purposes, written and oral statements are indistinguishable and
the attorney-client privilege should be applied uniformly to both
types of communications. See ECF No. 57 at 2.
3

33a
“a direction to counsel to pursue a legal court of action
[or a] legal opinion of counsel”); Barr Marine Prods.,
Co., Inc. v. Borg-Warner Corp., 84 F.R.D. 631, 639–40
(E.D. Pa. 1979) (discussing “partially privileged”
attorney-client communications and holding portions
of mixed communications were privileged); Merrin
Jewelry Co. v. St. Paul Fire & Marine Ins. Co., 49
F.R.D. 54, 57 (S.D.N.Y. 1970) (finding only two
paragraphs of a multi-page report to be protected by
the attorney-client privilege). Thus, the Court
concludes it may examine the individual statements
made by Defendant in his conversation with Attorney
A to determine whether they are protected by the
attorney-client privilege.
The Court finds the Ninth Circuit's opinion
in United States v. Alexander, 287 F.3d 811 (9th Cir.
2002), to be instructive in its analysis. In that case,
the defendant made threats to harm or kill specific
individuals to his court-appointed attorney during
communications relating to his pending criminal
proceedings. Alexander, 287 F.3d at 815. The
defendant's attorney asserted the attorney-client
privilege on his client's behalf when he was
subpoenaed to testify before a grand jury regarding
the defendant's threats. Id. The court ordered the
attorney to testify regarding the defendant's threats
but to be careful not to reveal any communication
unrelated to the threats, requiring the attorney to
redact any information from his records and files that
was not directly related to the threats made by the
defendant. Id The attorney's testimony was limited to
the threats the defendant had made. Id. Based upon

34a
the attorney's testimony before the grand jury, the
defendant was indicted on one count of obstruction of
justice and eight counts of communicating interstate
threats to injure others. Id. At trial, the attorney
again testified regarding the threats the defendant
made. Id. at 816. Following his conviction on five of
the eight counts of communicating interstate threats,
the defendant appealed, arguing his attorney violated
the attorney-client privilege by testifying regarding
the threats before the grand jury and at trial and by
disclosing information contained within the attorney's
files pertaining to the threats. Id. The Ninth Circuit
held the defendant “failed to demonstrate ... the
privileged nature of the threats during his
communication with his attorney.” Id.
Defendant does not claim he made the alleged
threatening statements for the purpose of obtaining
legal advice; rather, he complains that Alexander and
the Government's other cited cases misinterpret and
incorrectly rely on Nix v. Whiteside, 475 U.S. 157,
173–74 (1986), which involved a criminal defendant's
claim that his attorney rendered ineffective assistance
when the attorney advised the defendant that he
would inform the court of the defendant's intention to
perjure himself. Although the Court agrees that the
ethical duty of confidentiality discussed in Nix does
not equate to the attorney-client privilege at issue
here, it nevertheless believes the Alexander court was
correct in holding that a defendant's “threats to
commit violent acts against ... others [a]re clearly not
communications in order to obtain legal advice.” 287
F.3d at 816; see also United States v. Stafford, No. 17-

35a
20037, 2017 WL 1954410, at *3 (E.D. Mich. May 11,
2017); United States v. Sabri, 973 F. Supp. 134, 140–
41 (W.D.N.Y. 1996); State v. Thomson, Nos. 94-30083,
94-30085, 1995 WL 107300, at *1 (D. Or. 1995). The
privilege, while designed “to encourage full and frank
communication,” Upjohn Co., 449 U.S. at 389, was not
designed to protect every statement made to an
attorney, Diversified Indus., 572 F.2d at 602, and
certainly not threats to murder someone.
Here, Attorney A testified at the hearing on these
motions regarding a phone call between herself,
another attorney, and Defendant on February 27,
2018, the purpose of which was for Defendant to
obtain legal advice in a pending civil lawsuit. Attorney
A testified that, during the phone call, Defendant
made angry and threatening statements directed
toward a federal judge that were unrelated to the
attorneys' assistance in the civil action. Based upon
this record, the Court concludes that because the
alleged angry and threatening statements Defendant
made to Attorney A on February 27 were not “made
for the purpose of facilitating the rendition of legal
services to” Defendant, the statements are not
protected by the attorney-client privilege. Horvath,
731 F.2d at 561 (emphasis omitted). Accordingly,
Defendant's motion to exclude these statements is
denied.
B. Rule 404(b) Evidence
Defendant requests that the Court order the
Government to designate the character evidence it
intends to introduce at trial as soon as possible, ECF

36a
Nos. 26, 27, and further asks the Court to exclude
particular anticipated evidence, ECF Nos. 28, 29.
The Government responds that Defendant's Rule
404(b) motions are premature and it fully intends to
provide Defendant with reasonable notice of the
evidence it intends to introduce. ECF No. 37. The
Government recommends the Court order disclosure
of Rule 404(b) evidence no later than ten days before
trial. Id.
Federal Rule of Evidence 404(b)(2)(A) requires the
Government to “provide reasonable notice of the
general nature of any such evidence that the
prosecutor intends to offer at trial.” The Government
shall provide notice to Defendant of any Rule 404(b)
evidence it intends to introduce at trial on or before
July 16, 2018.
Additionally, the Court agrees with the
Government that Defendant's Motion to Exclude
404(b) Evidence is premature. Nevertheless, the
Court seizes this opportunity to remind the parties
that in order for evidence of prior bad acts to be
admissible under Federal Rule of Evidence 404(b), it
must be offered for a purpose other than proving a
defendant's propensity to act in accordance with the
crimes charged, “such as proving motive, opportunity,
intent, preparation, plan, knowledge, identity,
absence of mistake, or lack of accident.” Fed. R. Evid.
404(b). The Eighth Circuit, as well as this Court,
expects the Government to specify the particular
purpose for offering any evidence of Defendant's prior
bad acts, rather than “simply read[ing] the list of

37a
issues for which prior bad acts can be
admitted.” United States v. Mothershed, 859 F.2d 585,
589 (8th Cir. 1988).
III. CONCLUSION
For the reasons stated herein, Defendant's Motion
to Exclude Attorney-Client Privileged Information
(ECF No. 24) is DENIED. Defendant's Motion for
Designation of 404(b) Evidence (ECF No. 26) is
GRANTED. The Government shall provide notice to
Defendant of any Rule 404(b) evidence it intends to
introduce at trial on or before July 16, 2018. Because
the Court believes Defendant's Motion to Exclude
404(b) Evidence (ECF No. 28) is premature, the
motion is DENIED.
It is further ordered that, pursuant to 18 U.S.C. §
3161(h)(1)(D), trial is continued to July 30, 2018, at
9:00 a.m. before District Judge Pratt in a courtroom to
be determined. Counsel shall submit proposed jury
instructions, proposed voir dire, trial briefs, trialrelated motions, and a list of potential witnesses on or
before July 16, 2018.
IT IS SO ORDERED.

38a
APPENDIX C
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MINNESOTA
DENYING MOTION TO CLARIFY
SIGNED August 1, 2018

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
No. 0:18-cr-00090 (RWP/CFB)
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
ORDER
ROBERT W. PRATT, U.S. DISTRICT JUDGE
Before the Court is Defendant Robert Phillip
Ivers’s Motion to Clarify, filed on July 12, 2018. ECF
No. 74. The Government filed a response in opposition
on July 18, 2018. ECF No. 75. The matter is fully
submitted.

39a
On June 26, 2018, this Court entered an order
denying Defendant’s Motion to Exclude AttorneyClient Privileged Information (ECF No. 24), granting
Defendant’s Motion for Designation of 404(b)
Evidence (ECF No. 26), and denying Defendant’s
Motion to Exclude 404(b) Evidence (ECF No. 28). ECF
No. 58 at 8–9.
Defendant now seeks clarification of which
statements of the February 27, 2018 phone call are not
protected by the attorney-client privilege. Defendant
asserts that, based upon the Court’s analysis and
conclusion, only the statement “You don’t know the
fifty different ways I plan to kill [the judge]” should be
admitted because it is the only statement that could
be considered a threat. Defendant claims that under
United States v. Alexander, 287 F.3d 811 (9th Cir.
2002), on which the Court relied in its Order,
statements that do not threaten violence against
others are still subject to the attorney-client privilege
and must be excluded. Specifically, Defendant
contends other statements he made to Attorneys A
and B during the September 27 phone call—including,
“That judge stacked the deck against me to make sure
I lost the case”; “[The judge] is lucky the hearing was
canceled because I was going to throw some chairs”;
and “This fucking judge stole my life”—are not threats
and, therefore, are privileged and must be excluded.
In its June 26 Order, the Court determined it could
parse out any statement not made for the purpose of
obtaining legal advice and that any such statement
would not be protected under the privilege. ECF No.
58 at 6. Thus, the Court is not restricted to merely

40a
excluding threats, as Defendant urges. The Court
noted Attorney A had testified that Defendant made
angry and threatening statements during their
February 27 phone call that did not relate to the
purpose of the call, which was to obtain legal advice in
a pending civil action, but that instead were directed
toward a certain federal judge. The Court held that
because the alleged angry and threatening statements
“were not ‘made for the purpose of facilitating the
rendition of legal services to’ Defendant, the
statements are not protected by the attorney-client
privilege.” ECF No. 58 at 8 (quoting United States v.
Horvath, 731 F.2d 557, 561 (8th Cir. 1984) (emphasis
omitted)). The Court’s June 26 Order was clear.
Accordingly, Defendant’s Motion to Clarify (ECF
No. 74) is DENIED.
IT IS SO ORDERED.
Dated this 1st day of August, 2018.
s/ Robert W. Pratt_________
ROBERT W. PRATT, Judge
U.S. District Court

41a
APPENDIX D
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT
DENYING PETITION FOR REHEARING AND
REHEARING EN BANC
FILED SEPTEMBER 21, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-1563
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
Appeal from U.S. District Court
for the District of Minnesota (0:18-cr-00090-RWP-1)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.

42a
September 21, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

43a
APPENDIX E
EVIDENTIARY HEARING ON DEFENDANT’S
MOTION TO EXCLUDE ATTORNEY-CLIENT
PRIVILEGED INFORMATION.

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
No. 0:18-cr-90 (RWP/CFB)
June 18, 2018
BEFORE THE HONORABLE ROBERT W. PRATT
UNITED STATES DISTRICT JUDGE
(EVIDENTIARY)
APPEARANCES:
For the Plaintiff:
U.S. ATTORNEY'S OFFICE
JULIE ALLYN, AUSA

44a
300 S. 4th St., #600
Minneapolis, Minnesota 55415
For the Defendant:
KELLEY, WOLTER & SCOTT, P.A.
BRETT KELLEY, ESQ.
DANIEL SCOTT, ESQ.
431 S. 7th St., #2530
Minneapolis, Minnesota 55415
PAGES 14–16; 17–19; 21; 21-22; 35; 41–42; 47–48;
49; 50–52

45a
***
Q.
All right. And you also volunteer with
the Federal Pro Se Project?
A.

I do. From time to time.

Q.
And you helped founded it in 2011 here
in Minnesota, correct?
A.

Yes.

Q.
So let's talk a little bit about the Federal
Pro Se Project. Can you tell me kind of what the
purpose the project is? What their goals are?
A.
The primary goal is to assist the Court
and the parties in connecting people who are trying to
represent themselves with lawyers who are willing to
volunteer and help represent that person or guide
them in the proceeding.
Q.
So it's to provide legal assistance or
advice to pro se civil litigants?
A.

Yes.

Q.
Okay. So let's talk briefly about the
referral process. So, there's a civil pro se litigant, how
do they come to be involved with the pro se project?
A.
It's by referral only. One of the judges or
magistrate judges from this court needs to refer the
person to the project. And then there is a coordinator
who takes that call, you know, gather some basic
background information and then recruits an attorney
to assist that person.

46a
Q.
Okay. And normally an attorney or law
firm would do a conflicts check when they get a case
that comes to them, right?
A.

Correct.

Q.
It's just like you would do for any
perspective client?
A.

Yes.

Q.
Okay. So if there's not a conflict, how do
you decide whether or not an attorney or a firm takes
a case?
A.
Well, the firm never makes anybody
volunteer. But assuming that the conflicts check
comes out clear, and a lawyers wants to -- to do the
work, we would indicate to the coordinator, who's
Tiffany Sanders, that we were willing to either engage
in full-blown representation, or start with a consult.
And in this case, we said we would consult with Mr.
Ivers.
***
Q.
So, did Magistrate Judge Schultz contact
you directly or did it come through the coordinator?
A.
It came through the coordinator.
Magistrate Judge Schultz referred Mr. Ivers to the
program. And then the coordinator contacted my
colleague, who had indicated interest in being
involved in the project.
Q.
Is this calling another attorney at
Fredrikson?

47a

case?

A.

Yes.

Q.

And did she help you with Mr. Ivers'

A.

Yes. She was the lead.

Q.

Okay. And what is her name?

A.

Her name's Anne Rondoni-Tavernier.

Q.
Okay. Thank you. Okay. So, Ms. Sanders
from the pro se project contacts, is it RondoniTavernier? Did I say that right?
A.

You did very well.

Q.
I can't even read my handwriting. But
contacts her and says, Would you take Mr. Ivers' case?
A.
Yes. Essentially, yes. And Ms. RondoniTavernier is a fairly new lawyer, she mentioned it to
me. I said I would be happy to work with her on the
case. And we agreed to consult with Mr. Ivers.
Q.
Okay. As I understand it, it was Ms.
Rondoni-Tavernier that set up the phone call on
February 27th?
A.

Yes.

Q.
Okay. And she did that by calling Mr.
Ivers to see if he was available on the 27th?
A.

I believe that's correct.

Q.
And the purpose was to discuss a civil
lawsuit that Mr. Ivers had in front of Judge Schultz?
A.

Yes.

48a
Q.
And your goal with this consultation was
to provide him legal advice on that civil lawsuit in
front of Judge Schultz?
A.
Yes. To give -- we explained that we were
going -- our purpose, we were volunteers. And that our
purpose was to answer questions he had and to give
him our assessment of the case.
Q.
Okay. So fast forward to February 27th.
So you and Ms. Rondoni-Tavernier call Mr. Ivers from
your law office?
A.

Yes.

Q.
And it was just the three of you on this
phone call?
A.

Correct.

Q.

So the two attorneys and Mr. Ivers?

A.

Yes.

Q.
Nobody else listening in from -- either
side of the phone, as far as you know?

call?

A.

Certainly not on our end.

Q.

Okay. Okay. How long was this phone

A.
I would say it's -- it was around a half an
hour, maybe a little less than that.
Q.
And without going into the contents of
what you guys discussed, the purpose of the phone call
was to discuss his civil lawsuit, correct?
A.

Yes.

49a
***
Q.
Okay. So, after the February 27th phone
call, did you ask Mr. Ivers for permission to disclose
any part of that February 27th communication?
A.

No.

Q.
Okay. So you didn't ask him on the phone
call if you could disclose it?
A.

Correct.

Q.
And you didn't talk to him afterward
about whether or not you could disclose that?
A.

Correct.
***

THE COURT:
Well, Ms. Allyn, I'm
operating on the theory from United States versus
Nixon that the law is entitled to every person's
evidence.
I don't see how I can prohibit your questions or
Mr. Kelley's questions based upon the privilege.
I would think that Ms. Friedemann, and this is
not based on anything other than my sense of fairness,
I can't believe that if I order her to respond, which I
think I have to, I can't imagine somebody would
discipline her if a Judge orders her to reveal a
confidence.

50a
I don't know how I'm going to determine if this
is privileged without somebody telling me what was
said.
***
And that's all we're asking for at this stage with
this implicit waiver to litigate this matter.
MR. KELLEY: Your Honor, we object to the
notion that there's been any waiver here. The waiver
-- the privilege belongs to Mr. Ivers. He absolutely has
not waived that privilege.
THE COURT: I agree with that, yeah.
MR. KELLEY: Thank you, Your Honor.
***
Q. And I guess by other advice, do you mean
your attorney advice?
A.
the claim.
Q.

Yes. The actual substantive advice on
What were those threats?

MR. KELLEY: Objection, Your Honor.
THE COURT: Overruled.
BY MS. ALLYN:
A.
Mr. Ivers was very angry. He said, and
I'll use his words, "That fucking Judge stole my life
from me." And he said he had imagined 50 ways to kill
her.

51a

her?

Q.

Did he say anything about a plan to kill

MR. KELLEY: Objection, Your Honor.
THE COURT: Overruled.
BY MS. ALLYN:
A.

No.
***

Q.
So let me just back up a little bit. These
sort of angry threatening statements happened, what
was immediately said proceeding those threats?
MR. KELLEY: Objection.
THE COURT: Overruled.
BY MS. ALLYN:
A.
You know, I don't know exactly. But he - Mr. Ivers was reacting to our advice with respect to
the attempted claim -- basically the attempt to bring
a -- the same claim in a different legal box, which we
told him would not work.
***
MR. KELLEY:
Your Honor, before I go on
to redirect here, since the Court has been ordering Ms.
Friedemann to disclose confidential communications.
THE COURT:

Yes.

52a
MR. KELLEY:
I want to make sure that
it's clear on the record that Mr. Ivers has not waived
the privilege. And I'm not waiving it for him.
hint –

THE COURT:

I don't think there's any

MR. KELLEY: Right.
THE COURT: -- that he's waived the privilege.
I don't think there's any hint that you do not have
standing to raise his lack of waiver.
MR. KELLEY: Okay.
THE COURT: So if there's evidence that he's
waived the privilege, I don't know about it.
***
Q.
I think you said before that at the end of
the phone call when you were wrapping up, you told
him about your general legal opinion about the case.
Was that before or after?
A.
The general legal opinion about the case
was before. And then the threats happened. And then
we did conclude the call by asking if he had any
further questions.
Q.

So legal questions?

A.

Yes.

Q.
Okay. So you're still kind of -- you were
still giving legal advice, in a general sense, at the end
of the phone call?

53a
A.
We gave the opportunity for him to seek
legal advice.
Q.
So safe to say, even at the end of the
phone call, your purpose was still to give him legal
advice if he needed it?

call?

A.

Yes.

Q.

That was the only purpose of the phone

A.
I don't know if I would say it was the only
purpose of the phone call. The primary purpose was
for us to advise him.
Q.
Okay. One more thing I wanted to touch
on. Miss Allyn was talking about the difference
between these two cases. There was one case in front
of Judge Wright and one in front of Judge Schultz.
And they are different causes of action, correct?
A.
Q.
correct?
A.

Yes.
But it is the same underlying set of facts,
That's my understanding.

Q.
And you advised Mr. Ivers that he
couldn't repackage essentially the same cause of
action -- or the same set of facts into a different cause
of action?
A.

Correct.

Q.
And that's what he was upset about,
right? He was upset about the Judge's reasoning in
the first case?

54a
A.
Yes. His anger was directed primarily at
Judge Wright.
Q.

About her decision in the other case?

A.

Yes.

Q.
Which is basically the same case that's in
front of Judge Schultz?
A.

Yes.

55a
APPENDIX F
TRIAL TRANSCRIPT – DAY 2
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
No. 0:18-cr-90 (RWP/CFB)
Sept. 12, 2018
BEFORE THE HONORABLE ROBERT W. PRATT
UNITED STATES DISTRICT JUDGE
(JURY TRIAL – VOLUME II)
APPEARANCES:
For the Plaintiff:
U.S. ATTORNEY'S OFFICE
TIMOTHY RANK, AUSA
JULIE ALLYN, AUSA
300 S. 4th St., #600
Minneapolis, Minnesota 55415

56a
For the Defendant:
KELLEY, WOLTER & SCOTT, P.A.
DANIEL SCOTT, ESQ.
BRETT KELLEY, ESQ.
431 S. 7th St., #2530
Minneapolis, Minnesota 55415
SECOND DAY OF TRIAL
TESTIMONY OF LORA FRIEDEMANN
PAGES 383 Through 384; 401

57a
***
Q.
And these are things that you wrote
down as Mr. Ivers was speaking, correct?
A.

Yes.

Q.

And what does the first thing say?

A.
from me."

It says, "this fucking judge stole my life

Q.
Below there are quotes at the beginning
of that. Maybe they're underneath the bottom of the
"g." Are there quotes on the end as well?
A.

I believe so. Yes.

Q.

And then what is the next statement?

A.

"I had overwhelming evidence."

Q.
First of all, who is he talking about
during this time period?
A.

He was talking about Judge Wright.

Q.
And when he says, "I had overwhelming
evidence," did you understand what he was referring
to in that statement?
of her.

A.

Yes. He was referring to the trial in front

Q.
And then it said, "the judge 'stacked the
deck' to make sure I lost the case." Is that also about
Judge Wright?
A.

Yes.

Q.
You've got the -- 'stacked the deck' is in
quotes. Does that reflect that that's a verbatim quote?

58a
A.

It does.

Q.
If we go a little further down, there is
another portion in there. Can you read what that says.
A.
That says, "didn't read the fine print and
missed the 30 days to seek a new trial." And "she is
lucky" I was "going to throw some chairs."
Q.
So, Ms. Friedemann, you are calm right
now. You're reading that right now. How was it that
Mr. Ivers was delivering this?
A.

He was yelling, very angry.

Q.
And this is part of what you said, that
"barely controlled rage" time period?
A.

Yes.

Q.
And what was he talking about or did
you understand what he was talking about in
reference to the didn't read the fine print and missed
the 30 days to seek a new trial? What was that about?
A.
That was what I was referring to, where
he had missed the deadline for him to seek a new trial.
And he was talking about what he would've done in
the courtroom that day had there been a hearing in
front of her.
Q. And that he was going to "throw some
chairs"?
A. Yes.
say?

Q. Then moving to the bottom, what does that

59a
A. It says, "you don't know the 50 different ways
I planned to kill her."
Q. And who was that in reference to?
A. It was in reference to Judge Wright.
***
Q.
Okay. So you conveyed something
different than what you had written down in your
notes?
A.
I summarized the notes as a threat, a
death threat against Judge Wright.
Q.
So you call Tiffany Sanders a day later
and you tell her there is a death threat against
Judge Wright?
A.

Yes.

60a
APPENDIX G
TRIAL TRANSCRIPT – DAY 3
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
UNITED STATES OF AMERICA,
Plaintiff - Appellee.
v.
ROBERT PHILLIP IVERS,
Defendant – Appellant,
No. 0:18-cr-90 (RWP/CFB)
Sept. 13, 2018
BEFORE THE HONORABLE ROBERT W. PRATT
UNITED STATES DISTRICT JUDGE
(JURY TRIAL – VOLUME III)
APPEARANCES:
For the Plaintiff:
U.S. ATTORNEY'S OFFICE
TIMOTHY RANK, AUSA
JULIE ALLYN, AUSA
300 S. 4th St., #600
Minneapolis, Minnesota 55415

61a
For the Defendant:
KELLEY, WOLTER & SCOTT, P.A.
DANIEL SCOTT, ESQ.
BRETT KELLEY, ESQ.
431 S. 7th St., #2530
Minneapolis, Minnesota 55415
THIRD DAY OF TRIAL
TESTIMONY OF ANNE RONDONI TAVERNIER
PAGES 451; 476; 481; 483
TESTIMONY OF MATTHEW SEYFRIED
PAGE 524

62a
***
A.
As we had kind of -- or, rather, as I had
sort of explained Ms. Friedemann and I's position with
regard to his pending case in front of Judge Schiltz, I
would say that the conversation kind of shifted a little
bit. As I was sort of done explaining our piece, Mr.
Ivers began to sort of discuss a little bit about what
had happened previously in front of Judge Wright. It
was kind of an organic shift, I guess, in the
conversation. And at that point he, as we kind of
merged on to that topic, he really began to sort of focus
and fixate on what had happened in front of Judge
Wright and began speaking at length about it.
At that point I had made the determination
that I would kind of let him speak, you know, wanting
to make sure that he had felt like his -- like he had
been heard, that he could have a chance to explain,
you know, what he thought had occurred, you know,
despite what we had decided from a legal standpoint,
to kind of just have that conversation and allow him
to speak. So I mostly let him speak unhindered. I
didn't interject. And as he spoke, it escalated very
quickly and it kind of became essentially just a rant,
an angry rant based on -- or discussing what had
happened in the case in front of Judge Wright.
***
Q.
And what was the focus of his anger at
that point?
A.
It was primarily focused on Judge
Wright on, you know, the way that he felt he had
been treated by her and, you know, the way that the

63a
lawsuit in front of her had proceeded. It was focused
on her.
***
Q.
Based on your discussion of res judicata
and your legal opinion, it was logical for him to be
discussing the first case with Judge Wright.
A.

Yes.
***

A.
I recall him saying, "You don't know the
50 different ways" to kill her, that "I planned" or "I
thought" or "I conceived" or whatever verb he used. I
know that he said, "You don't know the 50 different
ways I thought of, planned," whatever, "to kill her.
***
A.
He didn't start describing his plans to
kill her, no.
***
Q.
So one of those two told you that Mr.
Ivers had said to his attorney, "You don't know the 50
different ways I plan to kill her," present tense?
A.
Correct. I believe that's correct. I can
look at my notes, if you want.
Q.

Go ahead. I will -- refresh your memory.

A.

That's correct. It's present tense.

Q.
Okay. So that's what you were going out
of here, is that one statement, plan, present tense?
Yes, sir.

64a
APPENDIX H
FEDERAL RULES OF EVIDENCE
RULE 501, 28 U.S.C.A.

Rule 501. Privilege in General
The common law—as interpreted by United States
courts in the light of reason and experience—governs
a claim of privilege unless any of the following
provides otherwise:
• the United States Constitution;
• a federal statute; or
• rules prescribed by the Supreme Court.
But in a civil case, state law governs privilege
regarding a claim or defense for which state law
supplies the rule of decision.

